<html>
<title> - STAFFORD ACT REFORM: SHARPER TOOLS FOR A SMARTER RECOVERY</title>
<body><pre>[Senate Hearing 111-895]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-895
 
       STAFFORD ACT REFORM: SHARPER TOOLS FOR A SMARTER RECOVERY

=======================================================================

                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2010

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
57-938                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois           SCOTT P. BROWN, Massachusetts
                      Ben Billings, Staff Director
                  Andy Olson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Landrieu.............................................     1
    Senator Graham...............................................    12
    Senator Pryor................................................    17
Prepared statements:
    Senator Landrieu.............................................    29

                               WITNESSES
                        Wednesday, May 12, 2010

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................     4
Matt Jadacki, Deputy Inspector General, Office of Emergency 
  Management Oversight, Office of Inspector General, U.S. 
  Department of Homeland Security................................     6
Hon. Joseph P. Riley, Jr., Mayor of Charleston, South Carolina, 
  and Member, Stafford Act Reform Task Force, U.S. Conference of 
  Mayors.........................................................    15
David Maxwell, Director and Homeland Security Advisor, Arkansas 
  Department of Emergency Management, and President, National 
  Emergency Management Association...............................    18
Sheila Crowley, Ph.D., President and Chief Executive Officer, 
  National Low Income Housing Coalition..........................    20

                     Alphabetical List of Witnesses

Crowley, Sheila, Ph.D.:
    Testimony....................................................    20
    Prepared statement...........................................    63
Fugate, Hon. W. Craig:
    Testimony....................................................     4
    Prepared statement...........................................    31
Jadacki, Matt:
    Testimony....................................................     6
    Prepared statement...........................................    38
Maxwell, David:
    Testimony....................................................    18
    Prepared statement...........................................    57
Riley, Hon. Joseph P. Jr.:
    Testimony....................................................    15
    Prepared statement...........................................    47

                                APPENDIX

Additional prepared statements submitted for the Record from:
    National Low Income Housing Coalition........................    72
    Catherine Earl, MSW, United Methodist Committee on Relief 
      (UMCOR)....................................................    82
    National Fair Housing Alliance, (NFHA).......................    85
    Mary Joseph, Director, Children's Defense Fund, Louisiana 
      Office, with attachments...................................    91
    Diana Rothe-Smith, Executive Director, National Voluntary 
      Organizations Active in Disaster with attachments..........   112
Questions and responses submitted for the record from:
    Mr. Fugate...................................................   125
    Mr. Jadacki..................................................   131
    Mr. Riley....................................................   135
    Mr. Maxwell..................................................   138


       STAFFORD ACT REFORM: SHARPER TOOLS FOR A SMARTER RECOVERY

                              ----------                              


                        WEDNESDAY, MAY 12, 2010

                                   U.S. Senate,    
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:41 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu, Chairman of the Subcommittee, presiding.
    Present: Senators Landrieu, Graham, and Pryor.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Good afternoon. I would like to call the 
Subcommittee on Disaster Recovery to order. Let me begin by 
apologizing for starting just a few minutes late. I was called 
to the floor unexpectedly on an amendment that I am offering on 
the bill, so I apologize, but I am happy we could get started 
now.
    I am looking forward to both of our panels today and I 
would like to get right in, if I could, to my opening 
statement, and hopefully we will be joined by one or two other 
Members that are here to welcome individuals that are serving 
on the second panel from their home States, Senator Graham and 
Senator Pryor.
    But I am very happy to conduct this hearing this afternoon 
to focus on continued reform of the Stafford Act and to make 
sure that we are doing everything we can as a country to be 
ready for whatever disaster might unfold. And today in America, 
families in Tennessee and Rhode Island are striving to bounce 
back from some of the worst flooding in each of their States' 
histories. Right now in the Gulf of Mexico, we are bracing for 
what could be the largest maritime oil spill in our Nation's 
history. And New Yorkers are breathing a cautious sigh of 
relief that the car bomb in Times Square didn't detonate.
    These are some events that have triggered the Stafford Act 
declaration or could conceivably have triggered such a 
declaration, so let us remember as we begin this hearing that 
the system that we are examining has to work in each and every 
one of these cases, and they are so very different--different 
parts of the country, different ramifications, different 
consequences, different public reactions, and even the cause of 
these are so different. So that is the difficulty of this work, 
but it is important work that we continue to do and I thank the 
panelists that are here to participate.
    So the purpose of our meeting is to evaluate the Stafford 
Disaster Relief Act and to review the proposals for its reform. 
The law was originally written to provide some flexibility and 
discretion and freedom of action on the part of the President. 
I have noticed, though, in my own work on this issue that some 
of that discretion has actually served as a stumbling block as 
opposed to a stepping stone for recovery when it has not been 
adequately used to help people that are struggling, not that 
that is a reflection on this Administration, but I think there 
have been policies in the past and rules and regulations that 
have cropped up in and around this law that have rendered it at 
some times not as effective as it could be.
    But I also believe that Congress must revise the statute to 
provide clearer direction because of this and also sharper 
tools for a smarter recovery. Perhaps more tools are necessary, 
but maybe some of the tools in this tool box are a little dull 
and need to be sharpened. There are some limitations in the 
current Act with regards to presidential authority that I think 
we need to look at, and maybe some of those need to be changed.
    This Subcommittee has compiled numerous legislative 
recommendations from hearing witnesses over the last 4 years 
spanning public assistance, housing, mental health issues, case 
management, environmental reviews, interagency coordination, 
and the Administration of block grants. Let me just list a few 
that we may be considering.
    Lack of advanced funding. Right now, the Federal emergency 
Management Agency (FEMA) does not provide under the current law 
advanced funding for public facilities until the facilities 
have been evaluated, they have been rebuilt, and then FEMAsa 
reimburses. Of course, in a situation where a tornado comes 
through a town and destroys one fire station and two schools, 
that process may work beautifully. But in a community like New 
Orleans, where 300 public buildings were destroyed and the city 
government was basically rendered inactive because of lack of 
budget and population, trying to--for a city or a State to 
advance this funding, waiting for the Federal Government to 
reimburse it doesn't seem like the smart way to recover, in my 
book, and we want to look about changing that.
    Arbitration and appeals is another issue. Disagreements 
between FEMA and disaster-stricken communities frequently drag 
on for years. At the end of 2008, after Hurricanes Katrina and 
Rita, 3 years after those two horrific storms and flooding 
caused by the levee break, we had 1,300 projects in dispute 
with FEMA--1,300. It was a bottleneck that could not be broken 
until I, with the help of many of my colleagues, had to 
literally pass another Act of Congress to establish an 
arbitration panel and to force FEMA.
    I am happy to say this Administration cooperated and 
Secretary Napolitano and Administrator Fugate have implemented 
that new provision very well, and as a result, disputes have 
been resolved. However, because of some question about it, it 
was limited only to Hurricanes Katrina and Rita, so 
unfortunately today, as of September 30, FEMA still has 61 
disasters that are still open and have been open for more than 
10 years in communities throughout the United States, unable to 
resolve disputes between local governments and FEMA. There has 
got to be a better way.
    Community disaster loans is another area. When Hurricanes 
Katrina and Rita hit, I was shocked to know that the total 
limit of borrowing available to any community was $5 million. 
The budget of the City of New Orleans at the time, if I 
remember, was $240 million. What was borrowing $5 million 
useful to New Orleans or to any city that might be hit, a 
significant metropolitan area, or a small town, for that 
matter, as well, by a major hurricane. I am sure it wasn't much 
of a help for Galveston, either. We must review those limits.
    Individual assistance reform, mental health, the Federal 
Government doesn't seem to have a strategy to assess disaster-
related mental health needs, and they can be immense after a 
tragic, catastrophic disaster, as we know. Hurricane Katrina 
followed a common pattern that we see in catastrophes where 
demand for services rapidly outstripped supplies, leaving 
trauma, grief, and depression and anxiety there in the 
community. These storms and floods and levee breaks leave 
mental health facilities destroyed. They displace mental health 
professionals so that people have nowhere to go that are trying 
to rebuild their community to seek professional help.
    We want to see what we can do to fix this. Despite GAO's 
recommendations issued over a year ago and to expand services 
under the program and three hearings by the Subcommittee on the 
subject and the development of a white paper by the Substance 
Abuse and Mental Health Services Administration (SAMHSA) 
proposing specific reforms, still no action on this has been 
taken.
    Trailers, alternative housing--the Stafford Act does not 
allow FEMA to repair rental units, which might be some of the 
quickest, most effective places for people to be housed and 
have the best long-term impact on a community, as opposed to 
having rental blight inside of a community while we are 
attaching trailers to the empty lots in the same neighborhood. 
It doesn't seem to make a lot of sense to me in terms of long-
term expenditure of taxpayer dollars.
    Case management is another situation. After Hurricane 
Katrina, the Federal Government simultaneously operated 
multiple case management programs on the Gulf Coast, each with 
different rules and standards. Service providers were unable to 
access FEMA's database on household needs. Cases were closed 
based on referrals instead of outcomes. We want to look at 
that.
    And then, finally, a lack of interagency coordination, 
although I must say it has gotten considerably better since 
this Administration has come on board, and the Departments of 
Housing and Urban Development (HUD), Homeland Security, 
Commerce, and Small Business have really stepped up to see what 
they can do, and it is obvious in some of the recent executive 
decisions that have been made. I still think as we move 
forward, more integrated approaches for interagency cooperation 
is necessary.
    And finally, I would be remiss, particularly because of 
what happened in Haiti, although it is not the subject of this 
hearing, when you think about the long-term recovery needs of 
Haiti, it makes you realize there are still many long-term 
recovery needs along the Gulf Coast and that the Stafford Act 
is not completely silent but almost silent in terms of long-
term recovery needs, which I think is important for this 
Subcommittee to evaluate.
    So this has been a multi-year effort. We are hoping to have 
final legislation sometime developed this summer. Also, a 
children's reform piece of legislation developed, as well, with 
the help of several other committees that have been working on 
that and an independent commission.
    So I would like to turn the hearing now over to our first 
panel--I am going to introduce them briefly--to receive your 
opening remarks on the subject of this hearing, and then we 
will proceed with a round of questioning.
    So let me welcome again to the panel Administrator Fugate. 
We are pleased again to have you here. This may be your sixth 
appearance before this Subcommittee, at least somewhere between 
four and six, and we are very appreciative of you making the 
time since you have come aboard as Administrator and we are 
looking forward to your testimony today.
    And Matt Jadacki, Deputy Inspector General for the 
Department of Homeland Security. I have reviewed your testimony 
and we are very interested in some of your findings and 
conclusions and suggestions.
    Mr. Fugate.

 TESTIMONY OF HON. W. CRAIG FUGATE,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Well, good afternoon, Madam Chairman, and 
again, as any of the other Members join us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the Appendix on 
page 31.
---------------------------------------------------------------------------
    When you asked me questions in my confirmation hearing 
about how I wanted to approach dealing with the regulatory 
environment that FEMA operated in, I laid out a construct that 
said that I was governed by three principle doctrines, the 
Stafford Act and what did Congress say and the intentions 
behind the Stafford Act, and then the interpretation of 
implementing that through the Federal regulatory process and 
the Code of Federal Regulations (CFR), and then the area where 
I thought as Administrator we needed to look at first, which 
was in our actual policy and procedures and also our 
implementation of those policies and procedures and start with 
that effort first.
    In doing that, we are finding that, as you point out, the 
Stafford Act does have tremendous flexibility, but the 
application of it has sometimes been restricted or had self-
imposed limitations which were not supported by statute or even 
by rule.
    One of the things that Secretary Napolitano did at the 
request of the President and working with the State of 
Louisiana was bring in new leadership to the Long-Term Recovery 
Office. Tony Russell was brought in to begin that process, and 
one of the things that is interesting about what happened in 
that following time frame, where almost a billion dollars in 
backlog of projects were able to start moving forward, was to 
question what did we change. And Tony points out that, by and 
large, about 90 percent of the workforce that was there the 
year before was the same workforce that was able to move 
forward, and that in many cases, it wasn't changing our 
regulations, it was clarifying the recommendation.
    As pointed out in the IG report, we have a challenge in 
making sure that we consistently apply our procedures and 
policies and we clearly understand what the outcome is supposed 
to be. So as we went through and began that process this year, 
I have asked and directed the Public Assistance and Individual 
Assistance Programs to look at our current policies.
    Well, since January, in the Individual Assistance area, we 
have reviewed 29 of those. We have actually looked at them and 
said four of them shouldn't even be a policy. It is a standard 
operating procedure to have the consistency that, again, the IG 
points out that if you don't have the consistency in this 
process, it leads to all kinds of challenges, particularly 
where you use a workforce that has combined permanent, semi-
permanent, and contracted temporary hires. If you don't have a 
good document to work from, you are going to get inconsistency.
    We looked at two of those policies and actually said they 
should be part of the CFR. They need to go through a regulatory 
review process and rulemaking. Public Assistance (PA) looked at 
theirs. They had about 55 policies they have worked through. 
And again, they saw that several should have been converted 
into the Standard Operating Procedures (SOPs). The way it was 
written was actually a process, and in trying to do that, 
people were reading it differently than what the outcome should 
have been because they are reading a policy that is really 
about how you do something, not what the outcome was. I mean, 
to one of the policies, it should actually have just been a 
fact sheet. It shouldn't have been a policy. And then, again, 
looking at four policies that should be regulatory and eight 
that need to be revised.
    So again, in this first go-around, we are looking at these 
from the standpoint, before we go back and ask for regulatory 
changes or look at Stafford, is making sure that we are doing 
the things that the statute says and the rules say we should be 
doing and making sure we are clear and consistent in that 
application.
    And I think from that process, several issues that were 
raised in talking with a lot of applicants that led, I believe, 
to some of the issues we had in arbitration was the requirement 
to provide information, and oftentimes going back and using 
other information. I will give you an example, Madam Chairman.
    If a professional engineer on behalf of an applicant, 
licensed in the State in which they are, certifies a level of 
damage, why don't we accept that? We would actually bring in 
our own person, who may not be a licensed engineer, to do a 
review and do the worksheet. So we now have determined 
internally to be consistent that if we have a licensed 
professional engineer in the State of record in which they are 
that renders a decision, we are going to consider that decision 
the subject matter expert and not seek outside counter or 
another opinion.
    If you do that, I think it gets to some of the crux of 
these matters that we saw ourselves getting into, and by far, 
we have a lot of work to do. And in the IG report, I think you 
are going to see some themes there that we are starting to 
address but we have not gotten to where we need to be. We are 
doing this in response to current disasters. We are doing this 
in response to older disasters.
    But I would be remiss in my final 10 seconds to not bring 
up, I cannot do any of this going forward without the Disaster 
Recovery Fund being replenished with supplemental because I can 
do no permanent work in any open disaster or new disaster that 
is about to occur.
    Senator Landrieu. Thank you, Mr. Fugate, and as you know, 
the Senate will be marking up that bill tomorrow and we are 
going to try to expedite that bill through Congress because the 
jar is empty right now and there are lots of projects that are 
in the Gulf Coast area and around the country that need this 
funding to continue, and we realize that it is an emergency and 
we need to move that bill as quickly as we can.
    Mr. Jadacki.

TESTIMONY OF MATT JADACKI,\1\ DEPUTY INSPECTOR GENERAL, OFFICE 
OF EMERGENCY MANAGEMENT OVERSIGHT, OFFICE OF INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Jadacki. Good afternoon, Madam Chairman. Thank you for 
the opportunity to discuss Federal disaster assistance provided 
by FEMA through the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jadacki appears in the Appendix 
on page 38.
---------------------------------------------------------------------------
    I would like to begin my remarks by briefly outlining the 
views of DHS's Office of Inspector General regarding the 
Stafford Act and potential amendments to it. Then, as 
requested, I will spend the balance of my time discussing our 
recent report, ``Assessment of FEMA's Public Assistance 
Program, Policies, and Procedures.'' In the interest of time, I 
will be summarizing my written remarks and ask that my full 
statement be included in the record.
    The Stafford Act was enacted by Congress in 1988 and has 
been periodically amended since then. Much of the detail of how 
disaster assistance is handled, however, is governed by 
regulations or policies that derive from the Stafford Act. We 
contend that most of the challenges facing FEMA in the 
administration of disaster assistance, and in particular the 
Public Assistance and Individual Assistance Programs, can be 
addressed through regulations and policies that do not require 
new legislation.
    Having said that, the report I will discuss now does 
include several matters for Congressional consideration. My 
office conducted an in-depth assessment of the design and 
implementation of FEMA's Public Assistance Program policies and 
procedures. The program provides critical assistance in the 
form of direct assistance and grants to State, tribal, and 
local governments as well as certain private, nonprofit 
organizations to enable communities to quickly respond to and 
recover from presidentially declared emergencies and disasters. 
Our assessment revealed multiple challenges that significantly 
hinder FEMA from consistently administering the PA Program in 
an efficient and effective manner. These challenges include 
untimely funding determinations, deficiencies in program 
management, and poorly designed performance measures.
    The first area I would like to discuss is the timeliness of 
Public Assistance funding. FEMA needs to improve timeliness to 
avoid project delays and improve program efficiency. Such 
improvements should center on the appeal determination process, 
environmental and historic preservation process, and the 
reconciliation of insurance payments.
    Under the appeals process that you mentioned, FEMA takes an 
excessive amount of time to process appeals because it does not 
adhere to or does not establish timeliness standards for the 
entirety of the appeals process, nor does it have standardized 
systems to track appeals. FEMA frequently rendered its appeal 
decisions long after the appeal was submitted. In some cases 
reviewed, the process spanned several years. The problem is 
compounded because FEMA has no agency-wide system to track 
appeals from submission date to final determination. As a 
result, FEMA has no standardized means to identify delays for 
each appeal. Nearly all the subgrantees we spoke with expressed 
dissatisfaction with the process and its seemingly inherent 
lack of timeliness.
    The environmental and historic process has fostered 
significant delays in the PA Program and continues to have a 
negative impact on time lines. FEMA is required to determine 
subgrantee compliance with applicable environmental and 
historic preservation laws, regulations, and executive orders 
before any funds are provided and work can begin. FEMA faces a 
number of challenges in this area, but we believe there could 
be improvement if FEMA initiates and triages the Earthquake 
Hazards Program (EHP) workload immediately after a disaster, 
establishes and enforces formal time limits for the EHP 
process, and better coordinates through agreements with other 
Federal agencies.
    Another area that can benefit from improvement is FEMA's 
management of the PA program. My testimony includes a list of 
challenges FEMA faces in these areas and recommendations for 
improvement. I will not go through all of them here, but would 
be happy to come back to them during the time for questions.
    One of the primary underlying causes, as we discussed, of 
the challenges FEMA faces in program management is turnover and 
limited training within FEMA's disaster workforce. Because the 
workforce is drawn nationwide from permanent employees, 
intermittent employees, and contractors, these staff are often 
assigned to areas away from their homes, and may lack the 
commitment for long-term assignments as well as knowledge of 
critical local issues, such as contractor availability and 
pricing. Further, FEMA sometimes transferred these employees to 
other disaster sites before the recovery process is completed. 
This results in a revolving door effect and has been 
exacerbated because FEMA has not established permanent offices 
in those States most vulnerable to recurring large disasters.
    We identified a number of alternatives that could be 
employed to streamline the PA process in our report and we 
discussed both the pros and cons of each of these alternatives. 
I will briefly outline three of the alternatives that we have 
explored.
    The first is for FEMA to use negotiated settlements. This 
alternative would change the present reimbursement process, 
which is document intensive, to a fixed lump sum negotiated 
settlement between FEMA and the grantee and subgrantee based on 
FEMA's estimates of damage and cost in conjunction with 
pertinent information provided by the subgrantee. These 
estimates would be binding and would not be subject to change.
    Another alternative discussed in our report is to increase 
the large project threshold while maintaining the current 
reimbursement process. This would result in a significant 
increase in the number of projects classified as small 
projects. Funding for projects classified as small projects is 
generally final and full payment is available upon approval of 
the original estimates.
    We also suggested that FEMA explore replacing some grant-
funded work with mission assignments. Under this alternative, 
FEMA could use a prescripted system of tasking and funding 
other Federal agencies to perform the work rather than having 
grantees and subgrantees perform the work themselves.
    Despite the challenges presented here, we learned that many 
of FEMA's customers consider the PA program design inherently 
sound. They believe the flaws are primarily in execution. 
Consequently, most of the challenges could be significantly 
diminished by focusing on the fundamentals upon which the PA 
program rests. If FEMA can address these fundamental 
challenges, it can then move to program enhancements that will 
speed the recovery process in the disaster-affected area.
    Madam Chairman, this concludes my prepared remarks. I 
welcome any questions that you may have. Thank you.
    Senator Landrieu. Thank you very much. We are going to take 
a very close look at the recommendations that you have made in 
your report and weave them into the proposals that we are going 
to have in this piece of legislation.
    But let me begin with just a few general questions. Since 
Hurricane Katrina happened, I have been very focused on the 
definitions of disaster, major disaster, catastrophe, in terms 
of triggers that could be applied based on actual damage. So 
could you, Mr. Fugate, outline for us under the current law 
what the two or three different--or four potential 
classifications of disasters are, and in your mind, is it clear 
to you and to your staff, and do you think clear to the 
public--let me say this, I don't think it is clear to the 
public, I know that--but is it clear to you what you are able 
to do in certain types of disasters or are you operating under 
just one sort of general rule book, no matter if it is a river 
overflowing and flooding 200 homes in X community or 10,000 
homes destroyed in Y community?
    Mr. Fugate. Well, Madam Chairman, the State of Florida did 
a very similar thing after Hurricane Andrew. We used categories 
to describe levels of disaster. By the time I became a State 
Director, we had actually migrated to the point where we always 
prepared for the large-scale events and scaled down.
    In looking at how we define this, I will give you the 
example of the most recent response in Tennessee. Tennessee was 
a very large disaster, and as we are seeing, it is much larger 
than many people realize. It would probably not be the 
definition of catastrophic, but it certainly was not a small 
disaster. Our traditional approach to a disaster when we 
receive a request from a governor, as has been pointed out by 
the Inspector General (IG) and other folks numerous times in 
previous disasters, is we should go out and assess and verify 
the level of damage exceeds the capability at the governor's 
request and then make a written recommendation to the President 
for that determination.
    However, I short-circuited that process, because in looking 
at the level of damages that I saw in a very brief visit and 
also knowing what had been reported and what the governor was 
telling me, I felt that we could not wait for the formal 
preliminary damage assessment process to go forward. We needed 
to act. We needed to get to work. And we made a recommendation 
based upon a flyover that gave us some information to support 
the first initial four counties. We very rapidly have added on 
additional counties to that to a total now of 42.
    In those 42 counties, I have not conducted the first formal 
preliminary damage assessment and count houses. We are looking 
at the damages relative to the impacts, and if we feel that 
will probably meet or exceed the threshold, we are adding it on 
because our goal here in the initial response is to speed to 
the Individual Assistance. We have a lot of people that are 
either in homes that are flooded or staying in hotels and 
motels or staying with friends and we know we need to get these 
programs turned on.
    But it is that mental agility to know that this disaster 
warranted a much faster response than the neighboring States 
who were more widespread but less dense impacts. The community 
itself was coping with the immediate needs. There was not a 
pressing need for outside Federal intervention that early in 
the recovery, and we did do damage assessments. We did reach a 
conclusion to support the recommendation and the President did 
declare it as disasters.
    So it is that ability to change up and go, this is not 
something we can wait. This is not something that the local and 
State officials will be able to manage until we look at the 
recovery piece of this, and in both cases, neither one of them 
were requiring response.
    So it is that ability to change the mindset and have the 
flexibility to go, when do you use certain processes, when do 
you not--when do you loosen up the rigorous process you may be 
using in a much smaller disaster to give you the flexibility in 
a larger disaster, which are all permitted under the Stafford 
Act, all permitted under the CFR, but oftentimes have been 
reactions to previous findings that areas may have been 
declared--did not have any significant damage and you may have 
had the allegations of fraud and abuse there.
    And so it is doing this in such a way that we are 
responsible to the taxpayers, but we are also focused on the 
needs of the survivors and the balance between them. And I 
think when we look at classifications, the only danger I see in 
that is it sometimes gives a bright line that may not always 
fit the disaster, but it is getting people to understand, how 
do you shift.
    Another example you get is projects. A reimbursement 
program makes sense in a small disaster where it is not 
encompassing the majority of your budget. But one of the things 
that Tony Russell was able to do, which we have the authority 
to do, was to advance up to 90 percent of the projects to start 
moving projects through the State of Louisiana and hold 10 
percent back for final payment. So that reimbursement process, 
we can push it to the other extreme and put more money into the 
project on the front end and hold very little on the back end 
for the final accounting.
    That was well within our authority, but it was the mindset 
to understand, we need to quit doing what is easy for us to 
administer and will oftentimes give us the greatest 
accountability and transparency without any risk of a negative 
finding and focus in on delivering the service to the States 
and local communities under the authorities that Congress 
granted us and understand that it shouldn't be easy for us, it 
should be easy for them.
    Senator Landrieu. Let me ask you, Mr. Jadacki, that same 
question about classifications of disasters. I mean, on one 
hand, I understand about not having these classifications so 
tightly drawn that you limit flexibility in the event that 
something like Tennessee is so obvious. But on the other hand, 
what concerns me is I don't think if you took a survey of 
Americans, I don't think they would have a general 
understanding of what they might be entitled to or what kind of 
help they might be able to get because every disaster seems to 
be so different. The reactions are so different, the levels of 
loan amounts and individual assistance.
    Do you think we need to sharpen our definitions or is the 
discretion better, in your viewpoint, from a management 
standpoint?
    Mr. Jadacki. We have grappled with this notion of 
catastrophic events for years. I spent 14 years working at FEMA 
and the last five as the CFO, and we always classified the 
larger disasters based on dollar amount. It was the Northridge 
earthquake, over $500 million. It was Hurricane Floyd. It was 
the Midwest floods and those types of things. But all that went 
out the back door with September 11, 2001, and then with the 
floods in Florida in 2004 and then certainly Hurricane Katrina 
in 2005. Now, we are talking billions and billions of dollars 
and wide areas that were affected.
    So to categorize a dollar amount over a billion dollars, 
over two billion dollars, I don't know if that is the right way 
to go. I think you need the flexibility. Some argue that if it 
is multi-State, multi-jurisdictional, it should be a 
catastrophic event. But how do you tell the folks who are 
affected by a tornado in one town that the event wasn't a 
catastrophic event, even though in the grand scheme of things 
it was a small event?
    So to put a label on something to be a major event and then 
a catastrophic event is real difficult. I think you need that 
flexibility and I think, incidentally, Hurricane Katrina, 
certainly that was a catastrophic event, but putting some sort 
of limits on it or dollar amounts or some sort of a fence 
around it, I just think would be real difficult.
    Senator Landrieu. And I generally agree with that, but I 
will say that I think there needs to be some understanding of 
some of these contained situations, whether it is a tornado or 
a minor flooding event, although there could be a couple of 
hundred homes flooded, that at some level, that could and 
should be the responsibility of local governments and the 
States. And then only when a disaster gets to a point where it 
is overwhelming for a State or a group of States should then 
some additional tools kick in. And I would like to continue to 
pursue some of that.
    I just think it helps the States to have some understanding 
that they might want to have some emergency funds set aside for 
incidents that might occur to one of their poorer counties or 
poorer parishes where they could step up very quickly and it 
doesn't take the act of Congress to provide that help. But for 
States then to understand when it is beyond their capacity, and 
we are going to ask the Governors Association and we have the 
mayors here testifying about this so that we can really try to 
determine, when is it appropriate for the Federal Government to 
step in with massive aid and how that should be distributed and 
when and how quickly.
    Let me go on to just a couple of other questions. The 
Individual Assistance cap, it is set now for individuals and 
households for a major catastrophe or major disaster at 
$30,000. I don't have in front of me what the cap is for minor 
disasters. If you know, you could speak it into the record. But 
is that sufficient? Where did we find that number from? Has it 
just grown by inflation index since it was initially put in the 
bill, and does it make any sense today?
    Mr. Fugate. Madam Chairman, that number is for any disaster 
that is declared that includes Individual Assistance. It is 
based upon a previous number that was established through the 
rule process and was tied to the Consumer Price Index. And as 
we know in many disasters, as what we are seeing in Tennessee, 
we know absolutely that for many of those survivors, this 
amount of funds will not make them whole.
    It kind of gets back to your discussion about the 
catastrophic events, and what we are trying to address in the 
Administration through long-term recovery planning is, is it 
FEMA's programs that we need to enhance or is it the other 
Federal programs that we need to fill in those gaps, because 
many disasters won't require above that. So is it better to 
increase the FEMA funds or is it better to better tie HUD, SBA, 
Farm Service Agencies, and other programs when those programs 
are not adequate.
    So there are two approaches. We could either look at this 
in the Stafford Act or we could look at our other Federal 
programs that may actually do better at a longer-term solution, 
and how do we tie those together so that the survivor is not 
going to only one location and the outcome for that person is 
we were only able to help them in the immediate part of the 
response but not in the longer-term recovery.
    Senator Landrieu. Well, I think it is a very important 
question to answer because it is just so troubling. The 
uncertainty in a disaster is bad enough based on the disaster 
itself. That is what a disaster is. It upsets the normal way of 
operating. But then to make it even worse, not only are 
governors not really clear about what help might be coming, or 
mayors and elected officials, but there is not a general 
understanding of the population about whether their hotel room 
will be paid for, when they might get that reimbursement. Are 
they going to be entitled to free housing for a month or 2 
months? Is there going to be a shelter provided?
    I think it is very important for us to try to be clear, and 
it may take us a couple of years to get this straight, but I 
really want to zone in on these details. Is it FEMA's 
responsibility right after a home is filled with floodwater to 
say, for the next 2 weeks, your shelter is under our 
responsibility, or the first 30 days, and then after that, we 
are turning this over to HUD, which is the housing agency at 
the Federal level, and through their programs of either Section 
8 vouchers or maybe a new disaster voucher that could be 
implemented, we could provide some kind of decent, safe housing 
until you can return for your rebuilding effort in your 
community.
    I think we are going to have to--and anything that, Mr. 
Jadacki, that you might have that not only would work well for 
the person being affected but also the taxpayer. We have to 
keep in mind, there is not unlimited funding here, and we have 
to do the things that are most efficient and most within the 
fiscal constraints that this government is now facing and will 
for some time to come.
    I see I have been joined by my able Ranking Member, the 
Secretary--Secretary, I have already promoted you--Senator 
Graham----
    Senator Graham. I will take any job I can get right now. 
[Laughter.]
    Senator Landrieu. You will take any paycheck that comes, 
right.
    Senator Graham. That is right.
    Senator Landrieu. Senator Graham, I don't know if you have 
an opening statement, but we were about ready to move to the 
next panel----

              OPENING STATEMENT OF SENATOR GRAHAM

    Senator Graham. No. I came here, one, to tell my Chairman 
that you are always trying to find ways to make the government 
work better when it comes to disasters and the review of this 
Act, the Stafford Act, is probably long overdue.
    When something bad happens like a Gulf oil spill or a 
hurricane, it is understandable that confusion comes about. It 
is understandable that it doesn't work perfect. But if you 
don't learn from past disasters, that is not understandable. So 
if we don't learn something from this Gulf spill and fix it, 
that is unacceptable. And I think you and I both understand 
that fossil fuels are part of our energy mix for a long time to 
come, and safe exploration for oil and gas here in America 
makes a lot of sense, because if we don't do it here, we have 
to buy it somewhere else, and that somewhere else when it comes 
to oil is not the most friendly neck of the woods.
    Now, when it comes to how to make this legislation more 
flexible, we are talking about people who live on the front 
lines, and the next panel is with Mayor Riley and I look very 
much forward to what the Conference of Mayors have to say and 
Mayor Riley has to say about how Congress can learn from past 
disasters.
    Senator Landrieu really spends a lot of time on this, 
because I think after Hurricane Katrina, she understands as 
well as anybody in the whole Congress what happens if you are 
not prepared, and she is doing everything she can to make sure 
that if something else happens, that we are better prepared, 
and I want to be your partner in that regard.
    Senator Landrieu. Thank you, Senator. I appreciate that.
    I have one or two more questions for this panel and then we 
will have Mayor Riley and others come forward on the second 
panel.
    I want to ask you about the Disaster Recovery Block Grants, 
because as you know, they came in, I think, they were initially 
implemented after the New York September 11, 2001, disaster, 
and if you could correct me if I am wrong on this record. I 
think it was a decision that was made and now it is a precedent 
that is set for any catastrophic disaster. I am not sure that 
it was used for disasters. The idea was, we have got to figure 
out a way to get this community some money as quickly as 
possible from the Federal Government. There was a quick review 
of all Federal programs, and bingo, Community Development Block 
Grants seemed to be the most flexible, something that was 
generally popular with local officials, and so it was put into 
effect.
    But when you think about it, it may not be the most 
appropriate kind of block grant to place in a disaster. In 
disasters, poor people are hurt, medium, I mean, middle-class 
folks are hurt, and actually, wealthy people can be brought to 
their knees, as well. Community Disaster Loans, their essence 
is to support struggling communities, and so when you layer 
that on top of a community like New Orleans, where you had 
wealthy neighborhoods devastated, middle-income neighborhoods 
destroyed, and poor neighborhoods destroyed, we found some 
difficulty in meeting the needs of the community through this 
adaptive process.
    Would it be possible for us to come up with just basic 
Disaster Recovery Block Grants that provide the flexibility 
that local officials need to actually meet the needs of their 
people, whether they are poor, middle-income, or wealthy? Would 
that be something we should consider?
    And, I am sorry, my staff said that we first used it in 
Oklahoma City in 1994 and then hurricanes in Florida in 2005. 
But it is sort of something that has evolved just as the needs 
have grown. Should we look at a more specific Disaster Block 
Grant that either HUD or FEMA could issue that might be a 
little bit more effective or efficient than just trying to use 
a program that wasn't created for the disaster and kind of 
making it fit disaster recovery?
    Mr. Fugate. Madam Chairman and Senator Graham, what you are 
describing is actually the process we have been working on at 
the President's direction under the leadership of Secretary 
Donovan of HUD and Secretary Napolitano of DHS. And my 
shorthand is, I am calling it the bucket list. Rather than 
create a new program, which we know what the challenges will be 
in doing that, what are our existing programs? And we look at 
HUD a lot with the Community Development Block Grant dollars, 
but actually, there are other programs out there. We know 
within the Farm Service Agency, particularly more rural parts 
of the country, there are programs there. We have economic 
development programs within Commerce. We have disaster 
unemployment that Labor administers. We have education 
programs.
    And what we are going back through is, as you point out, 
local governments and State governments shouldn't have to try 
to figure out what all the programs do. We need to deconflict 
that and roll in as a team, but also identify which programs 
exist today with authorities that would best meet the 
flexibility requirements, and then identify what the gaps are 
based upon our experience in these large, complex disasters.
    We know we are going to have to do this in Tennessee. We 
should have been doing this earlier. And if a State has been 
through this and a local government has been through it, they 
are better able to do this. But they should not have to learn 
this process in a disaster.
    So in the first steps as we go forward and the President 
makes a recommendation as to how we are going to go forward in 
the long-term recovery, part of this will be identifying all 
the Federal programs and agencies, how we work together and 
line up, and that may show us where there may be gaps in that 
flexibility or areas that are not addressed in existing 
programs with existing authorities.
    Senator Landrieu. Mr. Jadacki.
    Mr. Jadacki. Yes. I agree. Our office issued a Compendium 
of Disaster Assistance Programs about a year ago, and we can 
certainly get a copy of that for the record, too.
    But there are hundreds of programs out there in some shape 
or form dealing with disaster assistance. It is just getting 
the right people at the table to say, this is what we need for 
this disaster, this is what we need for that disaster, because 
all of them aren't needed, but in many cases a lot are. And it 
is not just the Stafford Act programs. There are other programs 
that are out there, too. For housing, there are four or five 
different agencies that can provide housing. For example, what 
is the best course of action after a disaster? Should it be 
FEMA housing? Should HUD take over? At what point should it go 
on? And I think you need to get the right players at the table 
to do those types of things.
    As far as providing assistance, I agree with Mr. Fugate. I 
think the States are in the best position to decide what best 
to provide for their citizens, for our preparedness. In a lot 
of States, some of the folks do need to be prepared for 72 
hours. And we need to manage expectations. FEMA is not going to 
come in and give you a brand new house if your house gets 
washed away or blown away. You are going to get the $30,000, or 
maybe something less or some other form of assistance. So I 
think managing the expectations of what the Federal Government 
is going to do versus what the State is going to do versus what 
the local government is going to do is critical after a 
disaster.
    Senator Landrieu. Well, that is an excellent segue into our 
next panel, and I thank you very much. Thank you for being 
here.
    I would like our second panel to come forward, and I am 
going to have my Ranking Member have the honor of introducing 
Mayor Riley. And then David Maxwell and Sheila Crowley, I will 
introduce. And thank you very much to the first panel.
    Mayor, we are honored to have you here today and I would 
like to turn it over to my Ranking Member for some opening 
remarks.
    Senator Graham. Well, thank you, Madam Chairman. It is a 
real pleasure to be able to introduce Mayor Riley, the Mayor of 
Charleston. He is one of the longest serving mayors, I think, 
in the country. He must have started when he was 12. 
[Laughter.]
    Mr. Riley. Aren't you kind.
    Senator Graham. I have never known anyone that enjoys their 
job more than Mayor Riley. I mean, he has an enthusiasm for the 
City of Charleston and really the State of South Carolina 
second to none, and when it comes to innovation and forward 
thinking and trying to be a problem solver, he is a real 
pleasure to work with.
    On this particular topic, after Hurricane Hugo and the 
experiences that we had in South Carolina, I think Governor 
Campbell and Mayor Riley made a great team back then and I look 
forward to listening to what he has to say on behalf of the 
Council of Mayors and figure out how we can make the Stafford 
Act more efficient and more flexible.
    So, Mayor Riley, welcome to Washington. I appreciate what 
you do for Charleston and the people of South Carolina. I am 
glad to have been able to work with you and look forward to 
doing so in the future.

TESTIMONY OF HON. JOSEPH P. RILEY, JR.,\1\ MAYOR OF CHARLESTON, 
   SOUTH CAROLINA, AND MEMBER, STAFFORD ACT TASK FORCE, U.S. 
                      CONFERENCE OF MAYORS

    Mr. Riley. Thank you very much, Senator Graham, for all 
your kind words and for all you do. We in South Carolina are so 
proud of Senator Graham, not just in how he represents us, but 
how he represents our country. He could not be more responsive 
to me and to my constituents. He is absolutely amazing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Riley appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    Senator Landrieu, I thank you for your leadership on this 
issue and your leadership for Louisiana and our country. I had 
the privilege of serving with her father when he was Mayor of 
New Orleans and a great mentor of mine and one of the greatest 
mayors I have ever served with, one of the great mayors in the 
history of our country, and we are so happy another Landrieu 
will be leading New Orleans. I have talked with Mitch and look 
forward to working----
    Senator Landrieu. Well, you are welcome. Any time, Mayor.
    Mr. Riley. Thank you. Thank you very much.
    I am pleased to be representing the U.S. Conference of 
Mayors. The former Mayor of New Orleans, Mayor Nagin, and the 
Mayor of Sacramento, California, Kevin Johnson, co-chaired our 
committee to look at the Stafford Act and to make 
recommendations.
    There are five key recommendations. I will mostly talk 
about one or two in my 5 minutes, but they are to provide 
special designation for catastrophic disasters, which the 
Chairman already raised; the issue of eliminating red tape that 
stymies recovery efforts; increase support to host communities; 
increase caps on disaster loans, which has already been 
mentioned; and make recovery dollars go directly to cities.
    In terms of the catastrophic disaster designation, all 
disasters are not created equal, and there is a problem with 
this, a kind of a systemic problem in that 4 or 5 years after 
the disaster, somebody appropriately with green eye shades on 
are going to be auditing what happened. There is no way that 5 
years later the terror and the elements of the disaster and the 
crisis that existed at that time can ever be understood. So it 
is extremely important that when there are very catastrophic 
events, that they have a special designation.
    Let me give you two quick stories, I think, that go to that 
systemic challenge. Hurricane Hugo hit Charleston, the biggest 
hurricane in our city's history, the biggest disaster in the 
country's history until then, 1989. The roof blows off City 
Hall. That is my command post, the eyes over the city. A very 
nice FEMA representative was in the building and the eye was 
over. We were getting ready for the worst part and then 
recovery. And I said, do you have a kernel of advice for me? 
And he said, ``Yes, Mayor. Make sure you account for all 
expenses.'' [Laughter.]
    And then 2 days later, we had received national attention. 
So 26 counties in South Carolina, we had. But the attention was 
coming to us, so I was trying to help smaller communities.
    So in Berkeley County, I get a report their sewer system is 
out. Their generator doesn't work. They need generators. I call 
Senator Hollings. We find out that Fort Campbell, Kentucky, has 
some generators. I called the General at Fort Campbell, 
Kentucky. He says, ``OK, we will send you 48 generators.'' I 
get a call from FEMA. They said, ``Mayor Riley, you have 
ordered these generators and you can't do that.'' And I said, 
why? And they said, ``Because we have not done an assessment.'' 
I said, there is not a working power line within 100 miles of 
here. There is no power. What kind of possible assessment?
    So what you have is that systemic problem that eventually 
there is the worry about everything being spent, but during the 
crisis, I think it would be like during a battle and the enemy 
is on the other side of the hill and you have got to hit them 
with everything you have got. You don't want to worry that, 3 
years later, somebody is going to count the number of mortars 
you used and whether they were too many and you are going to 
get punished for that.
    So with the catastrophic disaster designation, you have the 
capacity of doing a number of things. For instance, waive the 
Stafford Act provisions in terms of regulatory compliance. 
Provide 100 percent Federal funding for all eligible 
categories. Establish a 90-day hold harmless period of 
procurement so you don't have to worry about the mortars.
    The goal is--what it is with something like a catastrophic 
hurricane, it is like the person has a grievous injury and they 
need to get to the emergency room immediately. And the longer 
they wait, the greater risk that they are going to die or the 
longer it will take for them to recover and the greater 
permanent injury they will have. You need to get them to the 
emergency room immediately. You need to get all the help you 
possibly can. And so that is what the catastrophic designation 
will allow us.
    I am already out of time.
    Senator Landrieu. Take another minute or two, please.
    Mr. Riley. The direct funding is a very important point to 
raise, and I wouldn't use the CDBG criteria. For heaven's sake, 
let the mayor and council, with the input from the citizens, 
figure out how to use the money. They are, spending 20 hours a 
day working on it. They understand. But to not force all the 
money to come through the States when the city is usually the 
place where everybody is looking for response.
    And just one very subjective or theoretical basis for this 
that I would assert, and it is what I did with my staff when 
Hurricane Hugo was 2 days out. We didn't know for sure it was 
coming, but there was a low pressure system moving gradually 
across the continent, across the Mississippi. Lows attract 
hurricanes. There was a strong high, a Bermuda high, that was 
going to block it so the hurricane wasn't going to turn to the 
right like they often do. So it was looking like we might get 
it. It was a killer in the Caribbean, the biggest storm, 500 
miles wide. The eye was 25 miles wide.
    So I brought all my staff in, department heads, division 
heads, into my office, and I said, OK. We might get a direct 
hit. We must see this as an opportunity. And they looked at me 
a little blankly, and I said, it is not an opportunity we would 
ever want, but if it comes, it is an opportunity for us to 
serve our people when they need it the most, when we can save 
their lives, when we can give them help in their time of 
greatest need.
    You know, governments, we have to tax. We have to regulate. 
City governments give speeding tickets and citations and do a 
lot of wonderful things, but this is the time when we have the 
opportunity to help our people when they need it the most. And 
I would argue, in the revisions of the Stafford Act, you can't 
legislate that exactly, but to make sure that it is not the 
``gotcha'' 4 years later, what in the world did you do doing 
that, and you can't possibly----
    This is my testimony 5 years ago, May the first, 1990, on 
this issue before a House Committee, and a fair amount of what 
is in here is still relevant today. And as I re-read it, it is 
a reminder of things I have long since forgotten in terms of 
the crispness of the event. But that is what this opportunity 
for a revision of the Stafford Act gives us, the chance to make 
this statute and our National Government's response a special 
opportunity of service to the citizens of our country. 
Something happened to them they never wanted and they never 
thought would, and our country, with creativity and with 
fairness and with energy responds, and they will never forget 
it. That is part of the opportunity. And the country is a 
better place because you have done it.
    Senator Landrieu. Mayor, no one in this Congress could have 
said that any better than you, and it takes a mayor that has 
been there with their people at a great time of need, and I so 
appreciate the comments that you have made. If we had more 
mayors like you, we wouldn't have nearly the problems that we 
have, so thank you very much for your wonderful, heartfelt 
testimony.
    We are joined by the Senator from Arkansas, who is here to 
introduce our next panelist. We are glad you joined us, Senator 
Pryor. Thank you for your excellent work in this area, chairing 
our sort of sister or brother Subcommittee, and we thank you 
very much for being here.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Well, thank you. I want to thank you, Madam 
Chairman, because your commitment to improving the way the 
country carries out disaster recovery has just been second to 
none. Since the early days of Hurricane Katrina, you have been 
fighting to make government more effective and efficient and 
responsible for people affected by disasters. Because of your 
work and the work of this Subcommittee and things you have done 
in the Senate, we have made a lot of progress since 2005. I 
know we still have a ways to go, but you have just really been 
a national leader on this.
    It is a great pleasure to introduce an Arkansas native 
today, David Maxwell. He is the Director of the Arkansas 
Department of Emergency Management (ADEM), and he is the 2010 
President of the National Emergency Management Association 
(NEMA), and he is going to testify today.
    He has an extensive record of service to the State of 
Arkansas, which includes over 31 years of emergency management 
experience. His career in emergency management began in 1978 
when he worked in temporary housing for the State after major 
flooding in Little Rock, and I remember that flood. I was in 
the middle of it, actually.
    He worked his way up from Planning Specialist to ADEM's 
Plans and Operations Division Manager. On June 30, 2006, he was 
appointed Director of ADEM and State Homeland Security Advisor. 
He has overseen 11 presidentially declared disasters as 
Director of ADEM and served for six other declarations as a 
State Coordinating Officer prior to becoming Director.
    In addition, he serves on a number of State and national 
committees and working groups, including NEMA, the Central 
United States Earthquake Consortium, the Arkansas Terrorism 
Task Force, Arkansas Fire Protection Board, the State Emergency 
Response Commission, and the Arkansas Wireless Information 
Network Steering Committee.
    All of this is to say that I believe, and hope you agree, 
that Mr. Maxwell is uniquely qualified to talk about what needs 
to be done to improve the Stafford Act and our Nation's 
response and recovery mechanism.
    In light of the tornado that we just had in our State that 
killed one person last week, the horrible floods in Tennessee 
that took more than a dozen lives, and the tornado this past 
Monday evening that killed five in Oklahoma, it is clear that 
we are never far away from the next disaster. It is imperative 
that we rebuild a stronger, more effective, and more flexible 
Stafford Act that is designed to give us our best tools for 
responding to and recovering from all disasters.
    So I am glad that he was invited today, and Madam Chairman, 
thank you for having him at this very important hearing.
    Senator Landrieu. Thank you. Mr. Maxwell.

 TESTIMONY OF DAVID MAXWELL,\1\ DIRECTOR AND HOMELAND SECURITY 
   ADVISOR, ARKANSAS DEPARTMENT OF EMERGENCY MANAGEMENT, AND 
      PRESIDENT, NATIONAL EMERGENCY MANAGEMENT ASSOCIATION

    Mr. Maxwell. Thank you, Chairman Landrieu, Ranking Member 
Graham, and certainly Senator Pryor. Thank you for the 
opportunity to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Maxwell appears in the Appendix 
on page 57.
---------------------------------------------------------------------------
    Senator Pryor, thank you for that kind introduction and the 
continued support that you have shown for both Arkansas's 
Department Emergency Management and homeland security programs, 
but also the emergency management and homeland security of this 
Nation, so thank you very much.
    I come before you today representing the National Emergency 
Management Association (NEMA), and the State Emergency Managers 
of all 50 States, Territories, and Washington, DC. Since the 
Stafford Act is the primary piece of legislation guiding 
disaster response, NEMA has an obvious interest in maintaining 
the integrity of the Act.
    Originally, the Stafford Act was intentionally written very 
broadly to allow maximum flexibility for practitioners and 
discretion by the President. NEMA continues to support this 
flexibility and national needs must be considered in any 
changes to the Act. Changes for one State or region do not 
necessarily translate to the other areas of the country and 
could present additional and unintended challenges.
    Furthermore, and perhaps above all else, should you decide 
to make changes to the Stafford Act, implementation at the 
State level should remain the single most important 
undercurrent to any such changes. It is the responsibility of 
the governors and State governments to support communities by 
ensuring a seamless response among all levels of government. 
State responsibility also includes providing timely and 
efficient resource coordination, deploying and requesting 
interstate mutual aid is necessary, and implementing State and 
Federal disaster assistance programs. By the way, 27 States 
have some form of disaster assistance on their own.
    But to achieve all of these responsibilities, legislative 
changes to the Stafford Act may not be necessary. A majority of 
NEMA members agree that the primary issue during disaster 
response is not with the Stafford Act overall, but rather with 
disaster assistance policy. In recent years, we have realized 
most roadblocks regarding the Stafford Act don't lie in the 
legislation, but in unnecessarily strict interpretation and 
application of the law. These interpretations have led to more 
rigid regulations and policies not reflecting the true intent 
of the Act.
    While NEMA continues to discuss whether the Stafford Act 
needs amending to address catastrophic disasters, we do agree 
that the Stafford Act does not require broad and sweeping 
legislative changes at this time. Before looking at amending 
the Act, we encourage the Subcommittee to first address some 
programs that support Stafford functions but are in need of 
reauthorization.
    One of NEMA's highest priorities is the reauthorization and 
funding of the Emergency Management Assistance Compact (EMAC). 
In short, EMAC allows States to rely on existing mutual aid 
agreements in the time of disaster for equipment, personnel, 
and other resources. But EMAC needs to be reauthorized, and due 
to a lack of reliable year-to-year funding, long-range planning 
is all but impossible.
    Another asset requiring legislative action is support to 
Urban Search and Rescue (USAR) Teams. FEMA should be provided 
clear authorities for Urban Search and Rescue Teams to protect 
local departments and task force members when injuries or other 
liabilities occur as a result of rescue efforts.
    We also support the reimplementation of the PA Pilot 
Program. This program was very popular among our membership and 
provides efficient ways to distribute funds from the Disaster 
Relief Fund (DRF) without creating new grant programs or 
funding streams.
    The final specific program I would like to discuss is the 
Pre-Disaster Mitigation Program. This program is in desperate 
need of reauthorization, and I want to take the opportunity to 
thank the Subcommittee for supporting S. 3249, which passed the 
full Committee just a couple weeks ago. This reauthorization 
bill, with the Coburn amendment discouraging earmarks, will 
provide States and important tool to mitigate the effects of 
the disaster. NEMA remains committed to working with the 
Subcommittee to address any outstanding issues.
    Once these other programs are solidified and States are 
given the appropriate latitude to conduct their response, then 
potential shortfalls can be examined within the Act itself. But 
as changes are considered, there are some red flags to be 
careful of.
    Additional layers of bureaucracies should be avoided at all 
costs. New task forces, coordinating councils, or Federal 
offices cannot substitute for knowledgeable and properly 
trained Federal Coordinating Officers or planning efforts 
States should already have in place.
    FEMA should be allowed to complete the National Disaster 
Recovery Framework and implement some of those recommendations. 
Issues around public or individual assistance can be addressed 
through FEMA policy and regulations rather than legislation.
    Finally, with such complex programs all intertwined through 
the various levels of government, the States should remain the 
sole coordinator of these functions. The States have existing 
personnel to manage the programs and have the ability to view 
disaster response and recovery through the prism of Statewide 
and regional needs.
    As you can see, the Stafford Act is complex, but it works 
well, so we should be careful in making sweeping legislative 
changes. Such changes could dilute the original intent and 
create additional bureaucracies, thereby slowing future 
efforts.
    We continue to look forward to working with this 
Subcommittee and I will be happy to accept any questions at 
this time.
    Senator Landrieu. Thank you, Mr. Maxwell.
    Ms. Crowley is here with us today and we are pleased to 
have her here representing the National Low Income Housing 
Coalition. You have testified before our Subcommittee before 
and welcome back.

  TESTIMONY OF SHEILA CROWLEY, PH.D.,\1\ PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, NATIONAL LOW INCOME HOUSING COALITION

    Ms. Crowley. Thank you very much, Senator Landrieu, Ranking 
Member Graham, and Senator Pryor. I am happy to be here to 
testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Crowley appears in the Appendix 
on page 63.
---------------------------------------------------------------------------
    I would like to begin by thanking you, Senator Landrieu, 
for your steadfast commitment to the complete recovery of all 
the Gulf Coast States from the 2005 hurricanes. When sometimes 
it seems like much of the country and the Congress has moved 
on, you are an inspiration to me and to others who will keep 
doing this work for as long as it takes, so thank you.
    The National Low Income Housing Coalition (NLIHC) would 
like to associate ourselves with those who have suggested the 
current disaster response structure, which places primary 
responsibility on States and local governments, is inadequate 
in the face of catastrophes such as Hurricane Katrina. A 
priority for Stafford Act reform should be to clearly define 
when a disaster is catastrophic, as you have discussed, and to 
direct the President to intervene swiftly and comprehensively 
in such a case.
    For most people who are displaced by a disaster, finding 
temporary housing or a new home is time consuming and costly, 
but not beyond their capacity. But for low wage earners, the 
under- and unemployed, seniors and disabled people on fixed 
incomes who must leave their homes because of a disaster, the 
obstacles can be insurmountable. These are the people for whom 
government must plan.
    The true measure of how complete a disaster housing plan is 
will be the degree to which the most vulnerable people are 
covered. The National Disaster Housing Strategy now is required 
to take into account the special needs population, but does not 
really deal with the problems of people who are just too poor 
to make it on their own when a disaster strikes.
    Quick repair and reoccupancy of damaged housing should be 
the first order of business. Disaster housing policy can draw 
from the lessons we have learned on ending homelessness in the 
United States in which the concept of rapid rehousing is the 
preferred intervention today. Homeless people are provided with 
subsidies and services needed to move quickly into new 
permanent homes. Not only is the trauma reduced, but rapid 
rehousing is much less costly than lengthy stays in shelters or 
motels and hotels.
    When temporary housing will be required for many people 
after a disaster, the emphasis should be on making the 
transition from temporary to permanent housing as seamless as 
possible. One of the most serious flaws in the Hurricane 
Katrina housing response has been the disconnect between the 
temporary housing programs and the housing recovery strategies. 
A renter living in a trailer encampment is told to come up with 
a permanent housing strategy as use of the trailer is time 
limited. Yet the community in which the renter resides does not 
have a strategy for how to replace the rental housing that was 
lost. A displaced family's temporary housing plan and permanent 
housing plan should be one of the same, just as a community's 
temporary and permanent housing plans should be.
    For private market rental housing that is damaged, disaster 
resources should be used to restore the properties to habitable 
use as both temporary and permanent housing. The pilot program 
that allowed FEMA to pay for repairs to private rental housing 
in Iowa and Texas after the disasters in 2008 showed us that 
this approach is considerably more cost effective than the use 
of temporary housing units. Any reform of the Stafford Act 
should incorporate these findings.
    One of the most positive developments out of the Hurricane 
Katrina housing experience was the designation of HUD as the 
agency to administer disaster rent assistance. The HUD Disaster 
Housing Assistance Program (DHAP), announced in April 2007, was 
a vast improvement over the FEMA program. Any future disaster 
rent assistance programs should be run by HUD and its 3,500 
affiliated local public housing agencies.
    One concern with DHAP that many advocates have is that 
rents are not based on tenant income and the tenant's share of 
rent increases by $50 a month until it equals or exceeds the 
amount of assistance unless they can demonstrate economic 
hardship. Fortunately, under HUD Secretary Donovan's 
leadership, very low-income people have been or will be 
transferred from DHAP to the Section 8 Housing Voucher Program. 
This should be made a permanent feature of DHAP. Stafford Act 
reform should also assure that DHAP recipients are afforded the 
same due process rights as are other recipients of HUD housing 
assistance.
    In 2006, Congress provided $400 million for the Alternative 
Housing Pilot program, a.k.a. Katrina cottages. The report on 
the pilot is not expected before the end of 2011. We would 
suggest that a more timely report is needed, as the pilot 
program is to inform Stafford Act reform. A number of issues 
have been raised by Gulf Coast advocates about how the Katrina 
cottages are being used, and we would suggest that the 
Subcommittee may want to look at that very specifically.
    In closing, I would like to point out that it is outside of 
the scope of Stafford Act reform to address the structural 
shortage of rental homes available to very low-income 
Americans, but there can be no viable disaster housing strategy 
as long as this shortage persists. To address this shortage, 
Congress established the National Housing Trust Fund in 2008, 
but has yet to provide funding. We are seeking $1 million this 
year for the initial capitalization for the National Housing 
Trust Fund and we urge your support.
    Thank you again for inviting me to come.
    Senator Landrieu. Thank you, Ms. Crowley. I really 
appreciate it.
    Let me ask you, Mr. Maxwell, because I am very interested 
in the testimony on behalf of actually the professionals that 
are running the disasters that as an organization you are 
testifying that you think the current Stafford Act is 
sufficient. I have to say, I don't hear that from anyone, from 
any mayor or public official from any part of the country. So I 
am very curious about this, and I am very interested in your 
perspective. I think it is very important for me to try to 
understand this.
    So let me ask you this. In Arkansas, in your experience, 
what is the largest dollar amount of disaster that you 
personally have dealt with? Do you remember or know, or even if 
you don't know the dollar amount, just what it was?
    Mr. Maxwell. The ice storm of 2000 was somewhere in the 
neighborhood of $200 million. Interestingly, our next largest 
disaster had no damage in Arkansas and that was Hurricane 
Katrina. That was around $50 million to support the operation.
    Senator Landrieu. OK. And the reason I raised this is 
because I really think it is important, and I know that you are 
professionals in your work, but just to give you, I had them 
put this document, this sign up. The insured damage for 
Hurricanes Katrina and Rita was $51 billion. For Hurricane 
Andrew, it was $23.8 billion. The World Trade Center was $22 
billion. The Northridge earthquake was $18 billion. Hurricane 
William was $11.4 billion. Hurricane Ike was $10.7 billion. 
Hurricane Hugo was $7.3 billion, and that was in what dollars? 
What year was that?
    Mr. Riley. Nineteen-eighty-nine.
    Senator Landrieu. Nineteen-eighty-nine. So somebody quickly 
could do the calculation. It would have to be at least double, 
if not triple, so I would say probably triple, $21 billion.
    So from my perspective, my problem is that the Stafford Act 
may work for a couple of million dollar disaster, but from my 
perspective, it is clearly not working when it comes to these 
mega-disasters.
    Just to give you one example, the law--and I am going to 
ask you this, and maybe I am incorrect here, so that is what I 
want to get to--the law, I understand, not policy, limits the 
disaster loans to $5 million. Is that true? Is it the law, or 
is it a policy?
    Mr. Maxwell. I believe that is the law.
    Senator Landrieu. OK. So you are recommending any change to 
that law?
    Mr. Maxwell. No, ma'am. We are not recommending no changes 
to the Stafford Act. We are not recommending sweeping changes.
    Senator Landrieu. OK. I am just trying to struggle with 
this ``sweeping'' definition, because one of the things we may 
recommend is an increase in that limit, considering--I think 
Senator Graham might not have been here when I said this--but 
as I recall, Senator, the budget of the City of New Orleans was 
somewhere around $240 million a year. Of course, borrowing $5 
million wouldn't have made a bit of difference. And we had to 
struggle for months, trying to figure out, because the law 
capped it at $five million, it took us months. Meanwhile, a 
mayor like Mayor Riley or Mayor Nagin, was sitting there day 
after day after day after day for months trying to figure out a 
financing package to literally keep the city functioning.
    Think about this. Every police officer, every firefighter, 
every city employee, every 24 hours that lost their house kept 
asking, do I have a job, and no one could tell them because 
there was no ability for the Federal Government to tell them.
    Now, whether you think that is sweeping or not, I think it 
is necessary to do something so that mayors and governors--and 
so, Mayor, let me ask you. What would you recommend? You don't 
have to give me a dollar amount, but is there something that 
you or some of the other mayors would think might be fair, an 
application for a dollar amount of either low-interest loans or 
something to kind of keep you going while you are figuring out 
how to get the roof back on City Hall?
    Mr. Riley. It depends on the city. The thing about 
hurricanes is this. They are a very different form of disaster 
because they are holistic. A tragic tornado, even a tragic 
earthquake and certainly a tragic flood, the path of damage is 
usually defined. With a hurricane, no one in the community 
isn't hit. No one's roof isn't damaged. No one's job isn't at 
risk. I mean, the whole community.
    And so, maybe it is something relative to the budget or 
maybe even something within the regulatory power of FEMA, 
because, like the City of New Orleans, their need would be 
greater than a smaller city. But I think part of it is 
recognizing the scope.
    And I think in terms of the Stafford Act and the future, we 
know this, we don't like to say it, but we know that more and 
more people are moving to our coasts. And so these great big 
hurricanes will in time impact more people. And then for our 
country, the impact on our Nation's economy of a big 
metropolitan area being substantially impacted and not being 
able to get back going--what worried me, among other things 
during Hurricane Hugo, were the jobs.
    I worked to get the power back on. They said it will take 3 
weeks. I said, that is crazy. My community will die in 3 weeks. 
I don't care if you have to get every power company in America 
to have people down here. I want to have the power company up 
at midnight, because we couldn't--but it was the jobs, because 
every business that is back in operation. It is another thing 
to deal with your roof if you don't have a paycheck. Then you 
are talking, more serious problems.
    So I think it is something that has the flexibility to 
recognize. Charleston, it might be $10 million. In New Orleans, 
or I don't want to mention another city, put bad karma on 
them---- [Laughter.]
    But it might be $100 million. You don't know.
    Senator Landrieu. Well, perhaps we should think about a 
percentage.
    Go ahead, Mr. Maxwell, and then I am going to turn it over 
to Senator Graham.
    Mr. Maxwell. It seems to be--that is one of those limiting 
factors within the law. I think our membership is for any 
additional flexibility that can be built into the law, we are 
for. I think, for the most part, we think that the law is 
limited by policies and regulations, but I think on a case-by-
case basis, certainly we would look forward to working with you 
on recommendations that we could vet with our membership.
    Senator Landrieu. So you think that particular matter, you 
may support, your membership may support. Well, we will look 
forward to submitting some of those questions, because we would 
be very interested in that. It is important to have your 
support and your blessing for what we are doing.
    Mr. Maxwell. We look forward to those questions.
    Senator Landrieu. Senator Graham.
    Senator Graham. Well, I am learning a lot just by sitting 
here, but Mayor Riley is right. It depends on the size of the 
city, the scope of the damage done.
    But in the military--I am more familiar with this kind of 
system--like when you are in Iraq and Afghanistan, a company 
commander would have the ability to spend, say, $10,000, 
$50,000 without having to go all the way to Washington to help 
the local community, but the more money involved, the more 
approval you have to get. So maybe one of the things we could 
look at is changing the number, but sort of have a staged 
approval process. The higher the number, the more the authority 
you have to get, but not let it stand in the way of getting 
some cash into the region, because it is a balancing act, Mayor 
Riley, that we are trying to achieve here.
    Three years later, everybody is Monday morning 
quarterbacks, but sometimes you look and say, my God, a lot of 
this money was just completely fraudulently spent. You have got 
to have some control before it happens. And I guess the balance 
I am trying to achieve is a system of accountability and 
flexibility that are not mutually exclusive.
    Could you flesh out in your mind, Mayor Riley, how we would 
redefine catastrophic events, and is it your view this statute 
is marginally changed or major changes need to be implemented 
when it comes to the Stafford Act?
    Mr. Riley. I would say major. In the National Response 
Framework, which is a document, their definition is 
catastrophic events, any natural or manmade incident, including 
terrorism, that results in extraordinary levels of mass 
casualties, damage, or disruption affecting the population, 
infrastructure, crime, the economy, national morale, or 
governmental functions. And so that is, I think, a definition 
you could work on.
    I don't think you would want to use a number or anything. 
It would be something that the President and the head of 
Homeland Security would work on. But clearly, Hurricane Hugo 
would have been catastrophic, without any doubt.
    Senator Graham. Well, absolutely, and just as we think 
about it here, when a community is hit like this, how do you 
make payroll, because all the revenue stops. You can have a 
rainy day fund--it is one thing to have a rainy day fund. It is 
another thing to have a hurricane fund.
    Mr. Riley. That is right.
    Senator Graham. And I don't think many cities can save 
money for a hurricane like Hugo. So being able to meet payroll, 
where the Federal Government comes in with loans that will 
change the quality of life, to me seems to be a major change 
that is necessary.
    We just learned, the people of New Orleans, their firemen 
and their policemen and their school teachers and the public 
servants there, not only were they on the front lines of the 
damage, the city was unable to pay them. And so I think most 
Americans would love to have a system that would interject some 
cash, not only to individuals for housing needs, but for the 
local government who has to bring about law and order as well 
as repair the damage.
    So I am in the camp of looking at this from a major 
overhaul, and anything I can do to make it more flexible and 
achieve accountability, count me in. I have really learned a 
lot from the hearing.
    Thank you, Mayor Riley, for coming. Thank you, Mr. Maxwell, 
Ms. Crowley.
    Mr. Riley. Thank you, Senator.
    Senator Landrieu. I have just two more questions and then I 
think we can close the hearing. But in talking about 
accountability, I think some of the people that I represent are 
still shocked to know that some of the temporary housing in 
trailers, that the actual accounting of providing a trailer, 
managing the trailer, installing the trailer, and other 
services required in some instances amounted to anywhere 
between $70,000, I think, and $90,000.
    And I think this gets to your point, Ms. Crowley, that for 
the Federal Government to spend $70,000 to $90,000 on something 
that is temporary and after a certain time really quite 
unusable, not even entering into the area of formaldehyde and 
unsafe containers, it does seem to me that we need to pursue 
smarter housing strategies that are not only more long-term, 
but also more affordable for the taxpayer.
    So would you like to just elaborate on maybe some of the 
successes of the rental repair that I think were tried in the 
Galveston situation--I don't think it was necessarily tried in 
our situation--and what came of that?
    Ms. Crowley. Yes. I think that the rental repair pilot was 
a pilot and it wasn't retroactive to recovery from Hurricane 
Katrina.
    In the beginning, around while the people were meeting to 
discuss what the housing response in the Gulf Coast should be, 
there was a significant amount of discussion around why can't 
money be used to just get the existing housing back online. We 
were very fortunate to have part of our group folks who had 
argued similar kinds of things in disasters in California and 
had a fairly, we thought, strong legal opinion that FEMA could, 
in fact, do that, although FEMA said they were not allowed to 
do that.
    I think that it was an extraordinarily lost opportunity in 
the Gulf Coast for--and delayed the recovery, because if those 
dollars that went into all those trailers and all those motel 
rooms, etc., could have been spent to get much of that housing 
back in a way that it could be used, first of all, you would 
have more people back. Second of all, you would have your 
housing repaired. So you are not only just providing temporary 
housing, but you are providing permanent housing.
    I did read the report on what had happened in Iowa and 
Texas and the savings are quite extraordinary in terms of the 
difference between repairing rental housing and providing 
temporary housing units. I just glanced at Administrator 
Fugate's testimony and saw that he had noted the same kinds of 
savings and that was something that FEMA would be looking into.
    So certainly, in clearing up whatever ambiguity there might 
be in the law about whether or not FEMA is authorized to do 
that, I think would be a really important step in the Stafford 
Act reform.
    Senator Landrieu. Thank you. My final question is on hazard 
mitigation, to you, Mr. Maxwell. You state in your testimony, 
for every dollar invested in mitigation projects, the Federal 
Government saves four dollars in averted disaster assistance, 
but it often takes 12 to 18 months for mitigation funds to 
begin flowing. Would State and local governments benefit from 
receiving a small advance on their hazard mitigation dollars? 
How would that work, and what are the details of your 
recommendations, if you can recall them?
    Mr. Maxwell. I, frankly, can't recall all the details, but 
certainly we have a lot of success stories from mitigation and 
preventing future disaster costs and getting money out quicker. 
There is a balance. You don't want to confuse the mitigation 
money with Public Assistance money, although there is some 406 
mitigation which is part of Public Assistance.
    In our recent floods in Arkansas, 90 percent of the 
eligible project worksheets that were written include 
mitigation in them. So I think--and we are working with 
engineers to make sure that it is not just a guess of building 
it--going to the next larger culvert. You find out really what 
you need, and we think we are going to prevent a lot of damage 
in the future just through the PA program.
    Senator Landrieu. Thank you. I would like to ask the 
panelists if you want to end with a minute or something you 
would like to add that you would like to get on the record 
before we close. Ms. Crowley.
    Ms. Crowley. Well, I would just like to go back to my final 
refrain in the testimony, and that is to recognize that when a 
disaster strikes and housing is one of the great casualties in 
there, that figuring out how to solve those problems is, for 
the people who are displaced, is dramatically compounded by the 
fact that we do have a structural shortage of housing that low-
income people can afford.
    And so as we look at the National Disaster Housing Strategy 
and really think about what will happen in the future, and 
building on lessons learned from Hurricane Katrina, we have to 
look at it in that context. And hopefully, that will help 
people see the broader picture of what the housing 
circumstances are.
    Senator Landrieu. Thank you. Mr. Maxwell.
    Mr. Maxwell. I would just like to add to thank you for the 
long effort that you have gone through with a series of 
hearings on the Stafford Act. And I know you are getting closer 
and closer to coming to some conclusions and developing a bill 
and we look forward to any specific recommendations, running by 
our membership and certainly coming back to you with 
recommendations from the membership.
    Senator Landrieu. Mayor Riley.
    Mr. Riley. Senator, one specific and then one general. On 
specific, I think with regard to housing, it is important to 
have a greater role for HUD in that. They have great resources 
and great interest and capacity, technical capacity to be of 
assistance.
    And just on the broader one, it is the return to normalcy 
that is the challenge for the people of these disasters, every 
component of their lives getting back to normal, for their 
physical health, for their economic health, and for their 
emotional well-being.
    For us, as soon as the garbage could be picked up or the 
mail could be delivered or the streets cleared or the power 
turned on, all of those things, and so the speed and the quick 
response is more important than anyone would realize that 
hasn't been through this, and that is why I think the change is 
needed. It just isn't up to the standard that meets the 
potential of the disaster and the growth of our country.
    And I thank you for your very hard and thorough work on 
this issue, which will translate to people getting their lives 
back to normal, getting their feet back on the ground, 
restoring the economic, physical, and emotional health more 
quickly than it otherwise would have. Thank you very much.
    Senator Landrieu. Thank you, and let me just end with a 
short comment. Two things come to mind.
    One of the things that helped the people of Louisiana and 
the Gulf Coast feel more normal as quickly as possible was 
getting their children back into schools. We had 300,000 
children that went to school on Friday morning and could not 
return on Monday, and some of those children didn't return to 
those schools for 2 to 3 years. Most schools in the region 
after Hurricanes Katrina and Rita didn't open for at least 6 
months. So normal wasn't normal for those families.
    Some families I know drove two hours to put their children 
in school in the morning, drove back to try to repair their 
house during the day with no water and no electricity for 
months, drove back to pick their children up. It took them 2 
hours. And the Federal Government at the time this happened had 
no plan--no plan--to pay, reimburse, help the local communities 
find classrooms for 300,000 children, and that took an act of 
Congress.
    We can't do this anymore. We have to have automatic buttons 
that get pressed so that mayors and governors can respond and 
local officials can respond to the cries of their constituents. 
And I am going to press forward until those green buttons and 
those tools are in their hands to do it.
    On a more positive note, my staff, I couldn't go, but my 
staff just got back from Kobe, Japan. Fifteen years ago, the 
largest earthquake that ever hit Japan hit Kobe, Japan. I don't 
know the amount of damage. It was billions and billions. The 
city was hit. And the best statement that my chief of staff 
made to me, or my State director when he got back, is, 
``Senator, you couldn't even tell the earthquake hit.''
    And I think that is where we want to go. I think, Mayor, 
that is where we want to go. When we operate so efficiently 
that after--now, it is not going to be the next year, but after 
10 years, 5 years, 10 years, 15 years, a major catastrophe, I 
hope I can walk the shores of the Gulf Coast in New Orleans 
even 10 years from now and look and say, you can't even tell 
that anything happened here, because these catastrophic events 
take time. But the light at the end of the tunnel is, that city 
is stronger, brighter, more vibrant, and richer, more 
prosperous for all of its citizens because of what was done 
there, and we hope that will be the truth for Haiti. We hope it 
will be true for the Gulf Coast. We hope it will be true for 
many communities in America.
    Thank you very much. The record will remain open for 15 
days.
    The hearing is adjourned.
    [Whereupon, at 4:11 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7938.001

[GRAPHIC] [TIFF OMITTED] T7938.002

[GRAPHIC] [TIFF OMITTED] T7938.003

[GRAPHIC] [TIFF OMITTED] T7938.004

[GRAPHIC] [TIFF OMITTED] T7938.005

[GRAPHIC] [TIFF OMITTED] T7938.006

[GRAPHIC] [TIFF OMITTED] T7938.007

[GRAPHIC] [TIFF OMITTED] T7938.008

[GRAPHIC] [TIFF OMITTED] T7938.009

[GRAPHIC] [TIFF OMITTED] T7938.010

[GRAPHIC] [TIFF OMITTED] T7938.011

[GRAPHIC] [TIFF OMITTED] T7938.012

[GRAPHIC] [TIFF OMITTED] T7938.013

[GRAPHIC] [TIFF OMITTED] T7938.014

[GRAPHIC] [TIFF OMITTED] T7938.015

[GRAPHIC] [TIFF OMITTED] T7938.016

[GRAPHIC] [TIFF OMITTED] T7938.017

[GRAPHIC] [TIFF OMITTED] T7938.018

[GRAPHIC] [TIFF OMITTED] T7938.019

[GRAPHIC] [TIFF OMITTED] T7938.020

[GRAPHIC] [TIFF OMITTED] T7938.021

[GRAPHIC] [TIFF OMITTED] T7938.022

[GRAPHIC] [TIFF OMITTED] T7938.023

[GRAPHIC] [TIFF OMITTED] T7938.024

[GRAPHIC] [TIFF OMITTED] T7938.025

[GRAPHIC] [TIFF OMITTED] T7938.026

[GRAPHIC] [TIFF OMITTED] T7938.027

[GRAPHIC] [TIFF OMITTED] T7938.028

[GRAPHIC] [TIFF OMITTED] T7938.029

[GRAPHIC] [TIFF OMITTED] T7938.030

[GRAPHIC] [TIFF OMITTED] T7938.031

[GRAPHIC] [TIFF OMITTED] T7938.032

[GRAPHIC] [TIFF OMITTED] T7938.033

[GRAPHIC] [TIFF OMITTED] T7938.034

[GRAPHIC] [TIFF OMITTED] T7938.035

[GRAPHIC] [TIFF OMITTED] T7938.036

[GRAPHIC] [TIFF OMITTED] T7938.037

[GRAPHIC] [TIFF OMITTED] T7938.038

[GRAPHIC] [TIFF OMITTED] T7938.039

[GRAPHIC] [TIFF OMITTED] T7938.040

[GRAPHIC] [TIFF OMITTED] T7938.041

[GRAPHIC] [TIFF OMITTED] T7938.042

[GRAPHIC] [TIFF OMITTED] T7938.043

[GRAPHIC] [TIFF OMITTED] T7938.044

[GRAPHIC] [TIFF OMITTED] T7938.045

[GRAPHIC] [TIFF OMITTED] T7938.046

[GRAPHIC] [TIFF OMITTED] T7938.047

[GRAPHIC] [TIFF OMITTED] T7938.048

[GRAPHIC] [TIFF OMITTED] T7938.049

[GRAPHIC] [TIFF OMITTED] T7938.050

[GRAPHIC] [TIFF OMITTED] T7938.051

[GRAPHIC] [TIFF OMITTED] T7938.052

[GRAPHIC] [TIFF OMITTED] T7938.053

[GRAPHIC] [TIFF OMITTED] T7938.054

[GRAPHIC] [TIFF OMITTED] T7938.055

[GRAPHIC] [TIFF OMITTED] T7938.056

[GRAPHIC] [TIFF OMITTED] T7938.057

[GRAPHIC] [TIFF OMITTED] T7938.058

[GRAPHIC] [TIFF OMITTED] T7938.059

[GRAPHIC] [TIFF OMITTED] T7938.060

[GRAPHIC] [TIFF OMITTED] T7938.061

[GRAPHIC] [TIFF OMITTED] T7938.062

[GRAPHIC] [TIFF OMITTED] T7938.063

[GRAPHIC] [TIFF OMITTED] T7938.064

[GRAPHIC] [TIFF OMITTED] T7938.065

[GRAPHIC] [TIFF OMITTED] T7938.066

[GRAPHIC] [TIFF OMITTED] T7938.067

[GRAPHIC] [TIFF OMITTED] T7938.068

[GRAPHIC] [TIFF OMITTED] T7938.069

[GRAPHIC] [TIFF OMITTED] T7938.070

[GRAPHIC] [TIFF OMITTED] T7938.071

[GRAPHIC] [TIFF OMITTED] T7938.072

[GRAPHIC] [TIFF OMITTED] T7938.073

[GRAPHIC] [TIFF OMITTED] T7938.074

[GRAPHIC] [TIFF OMITTED] T7938.075

[GRAPHIC] [TIFF OMITTED] T7938.076

[GRAPHIC] [TIFF OMITTED] T7938.077

[GRAPHIC] [TIFF OMITTED] T7938.078

[GRAPHIC] [TIFF OMITTED] T7938.079

[GRAPHIC] [TIFF OMITTED] T7938.080

[GRAPHIC] [TIFF OMITTED] T7938.081

[GRAPHIC] [TIFF OMITTED] T7938.082

[GRAPHIC] [TIFF OMITTED] T7938.083

[GRAPHIC] [TIFF OMITTED] T7938.084

[GRAPHIC] [TIFF OMITTED] T7938.085

[GRAPHIC] [TIFF OMITTED] T7938.086

[GRAPHIC] [TIFF OMITTED] T7938.087

[GRAPHIC] [TIFF OMITTED] T7938.088

[GRAPHIC] [TIFF OMITTED] T7938.089

[GRAPHIC] [TIFF OMITTED] T7938.090

[GRAPHIC] [TIFF OMITTED] T7938.091

[GRAPHIC] [TIFF OMITTED] T7938.092

[GRAPHIC] [TIFF OMITTED] T7938.093

[GRAPHIC] [TIFF OMITTED] T7938.094

[GRAPHIC] [TIFF OMITTED] T7938.095

[GRAPHIC] [TIFF OMITTED] T7938.096

[GRAPHIC] [TIFF OMITTED] T7938.097

[GRAPHIC] [TIFF OMITTED] T7938.098

[GRAPHIC] [TIFF OMITTED] T7938.099

[GRAPHIC] [TIFF OMITTED] T7938.100

[GRAPHIC] [TIFF OMITTED] T7938.101

[GRAPHIC] [TIFF OMITTED] T7938.102

[GRAPHIC] [TIFF OMITTED] T7938.103

[GRAPHIC] [TIFF OMITTED] T7938.104

[GRAPHIC] [TIFF OMITTED] T7938.105

[GRAPHIC] [TIFF OMITTED] T7938.106

[GRAPHIC] [TIFF OMITTED] T7938.107

[GRAPHIC] [TIFF OMITTED] T7938.108

[GRAPHIC] [TIFF OMITTED] T7938.109

[GRAPHIC] [TIFF OMITTED] T7938.110

[GRAPHIC] [TIFF OMITTED] T7938.111

[GRAPHIC] [TIFF OMITTED] T7938.112

[GRAPHIC] [TIFF OMITTED] T7938.113

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
